HHS/OIG, Audit - "Review of Managed Care Payments for Dual Eligible Beneficiaries with Institutional Status," (A-05-00-00015 )
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Managed Care Payments for Dual Eligible Beneficiaries with
Institutional Status," (A-05-00-00015)
July 16, 2002
Complete Text of Report is available in PDF format
(941 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that for some managed care organizations (MCOs)
there was a disparity between the Medicare payment and the cost of the medical
care provided to beneficiaries with institutional status. Some MCOs were significantly
overpaid while others were significantly underpaid. For example, one MCO had
an annual average shortfall of almost $4,500 per beneficiary during 1998, and
a second MCO had an annual average overage exceeding $4,000 for each beneficiary
during the same period. This disparity in payments may have hurt the Centers
for Medicare and Medicaid Services (CMS) ability to provide managed care options
to beneficiaries. Underpayments could reduce the number of MCOs willing or able
to remain in the Medicare program. If they remain in the program, these MCOs
might be forced to target only healthier beneficiaries for enrollment, limiting
the health care choices of those individuals who are sicker. To help correct
for this the CMS is implementing a risk adjustment methodology based on the
beneficiarys health status, but it is planned to be phased in over the 8-year
period 2000 through 2007. We believe that delaying the risk-adjusted payment
structure perpetuates the payment problems of the existing system. We recommended
that CMS consider the results of our work as it proceeds with the implementation
of the risk adjustment factors and seek legislation to accelerate the phase-in
of the risk adjustment payment system.